NATIONAL ENDOWMENT FOR THE ARTS
    OFFICE OF INSPECTOR GENERAL




 SEMIANNUAL REPORT TO THE CONGRESS

    OCTOBER 1, 2012 - MARCH 31, 2013
SEMIANNUAL REPORT TO THE CONGRESS
      OCTOBER 1, 2012 - MARCH 31, 2013

       OFFICE OF INSPECTOR GENERAL

     NATIONAL ENDOWMENT FOR THE ARTS
                                                                          April 30, 2013



MEMORANDUM

TO:           Joan Shigekawa
              Acting Chairman

FROM:         Tonie Jones
              Inspector General

SUBJECT:      Semiannual Report to the Congress: October 1, 2012 - March 31, 2013

The Inspector General Act of 1978 (IG Act), as amended (5 U.S.C. App. 3), calls for the
preparation of semiannual reports to the Congress summarizing the activities of the Office of
Inspector General (OIG) for the six-month periods ending each March 31 and September 30.
I am pleased to enclose the report for the period of October 1, 2012 - March 31, 2013.

The Inspector General’s report is intended to cover audits, inspections, evaluations,
investigations and other reviews conducted by the OIG. The report also indicates the status of
management decisions whether to implement or not to implement recommendations made by
the OIG. The former President’s Council on Integrity and Efficiency developed the reporting
formats for Tables I and II to ensure consistent presentation by Federal agencies. The tables
provide only summary totals and do not include a breakdown by auditee.

The IG Act requires that you transmit this report to the appropriate committees of the Congress
within 30 days of receipt, together with any comments you may wish to make. Comments that
you might offer should be included in your "Report on Final Action," a management report that
is required to be submitted along with the Inspector General’s report. We will work closely with
your staff to assist in the preparation of the management report. The due date for submission
of both reports is May 30, 2013.

I appreciate the continuing support we have received from the Chairman’s Office and your
managers throughout the Agency. Working together, I believe we have taken positive steps to
improve Agency programs and operations. We look forward to continuing these efforts.
                                  TABLE OF CONTENTS
                                                                                    PAGE

NATIONAL ENDOWMENT FOR THE ARTS                                                       1

OFFICE OF INSPECTOR GENERAL                                                           1

SUMMARY OF WORK COMPLETED BY THE OIG                                                  2

    Audits/Inspections/Evaluations/Reviews                                            2
    Audit Resolution                                                                  2
    Inspections                                                                       2
    Investigations                                                                    2
    Audit of the NEA Fiscal Year 2012 Financial Statements                            3
    NEA’s Compliance with the Federal Information Security Management Act of 2002     3
    Review of Legislation, Rules, Regulations and Other Issuances                     3
    Technical Assistance                                                              3
    Web Site                                                                          3
`   Peer Reviews                                                                      4
    Outreach Activities                                                               4
    Other Activities                                                                  4

SECTIONS OF REPORT                                                                    6

    SECTION 1 - Significant Problems, Abuses and Deficiencies                         6

    SECTION 2 - Recommendations for Corrective Action                                 6

    SECTION 3 - Recommendations in Previous Reports on Which
                  Corrective Action Has Not Been Implemented                          7

    SECTION 4 - Matters Referred to Prosecuting Authorities                           7

    SECTION 5 - Denials of Access to Records                                          7

    SECTION 6 - Listing of Reports Issued                                             8

    SECTION 7 - Listing of Particularly Significant Reports                           9

    SECTION 8 - Statistical Tables Showing Total Number of Audit Reports,
                  Inspection Reports and Evaluation Reports, and the
                  Dollar Value of Questioned Costs                                    9

    SECTION 9 - Statistical Tables Showing Total Number of Audit Reports,
                  Inspection Reports and Evaluation Reports, and the Dollar
                  Value of Recommendations that Funds be Put to Better
                  Use by Management                                                   9
                                TABLE OF CONTENTS

                                                                                        PAGE


     SECTION 10 - Audit Reports, Inspection Reports and Evaluation Reports
                   Issued Before the Commencement of the Reporting
                   Period for Which No Management Decision Has Been Made by
                   the End of the Reporting Period                                          9

     SECTION 11 - Significant Revised Management Decisions Made During the Period           9

     SECTION 12 - Significant Management Decisions With Which the Inspector
                    General Disagrees                                                       9

TABLE I - Inspector General Issued Reports With Questioned Costs                           10

TABLE II - Inspector General Issued Reports With Recommendations That Funds
              Be Put To Better Use                                                         11

Definitions of Terms Used                                                           Appendix A
NATIONAL ENDOWMENT FOR THE ARTS
Founded in 1965, the National Endowment for the Arts (NEA) offers assistance to a wide range of
non-profit organizations and individuals that carry out arts programming, as well as to State Arts
Agencies and Regional Arts Organizations. NEA supports exemplary projects of excellence in the
artistic disciplines of artist communities, dance, design, folk and traditional arts, literature, media arts,
museums, music, opera, presenting, theater and musical theater, and visual arts, as well as for arts
education projects and local arts agencies. Grants are awarded for specific projects rather than for
general operating or seasonal support. Most NEA grants are matched dollar for dollar with non-
Federal funds. Through the Consolidated and Further Continuing Appropriations Act, 2013, NEA
received $145.729 million, net a 0.16% across-the-board rescission included in Division F, Section
1101(c)(1), and a 0.2% across-the-board rescission included in Division G, Section 3004(c)(1). This
appropriation was further subject to a reduction of $7.346 million per a sequestration order issued by
the President on March 1, 2013.

OFFICE OF INSPECTOR GENERAL
The Inspector General Act of 1978 (IG Act), as amended (5 U.S.C. App. 3), established
independent, objective units within Federal agencies for oversight purposes. In 1988, the
Congress amended the IG Act (Public Law 100-504) to establish statutory Inspectors General at
additional departments and agencies, as well as designated Federal entities and establishments,
including NEA. The mission of NEA Office of Inspector General (OIG) is to:

       -       Conduct and supervise independent and objective audits, inspections and
               evaluations relating to NEA programs and operations;

       -       Promote economy, effectiveness, and efficiency within NEA;

       -       Prevent and detect fraud, waste, and abuse in NEA programs and operations;

       -       Review and make recommendations regarding existing and proposed legislation and
               regulations relating to NEA programs and operations; and

       -       Keep the NEA Chairman and the Congress fully and currently informed of problems
               in Agency programs and operations.

On October 14, 2008, the President signed the Inspector General Reform Act of 2008, Public Law
110-409. The 2008 Act amends the previous IG Act of 1978 by enhancing the independence of the
Inspectors General and creating a Council of the Inspectors General on Integrity and Efficiency.

This semiannual report summarizes NEA OIG's major activities, initiatives, and results for the six-
month period ended March 31, 2013. NEA OIG consists of four full-time positions, the Inspector
General and three auditors. Currently, NEA OIG is fully staffed. There is no investigator or general
counsel on the staff. To provide a reactive investigative capability, we have a Memorandum of
Understanding with the General Services Administration’s Office of Inspector General (GSA OIG)
to provide investigative coverage for us on a reimbursable basis, as needed. (No investigative
coverage from GSA OIG was needed during the recent six-month period.) We have a
Memorandum of Understanding with the National Credit Union Administration’s Office of Inspector
General (NCUA OIG) that details procedures to be used for providing NEA OIG with legal services
pursuant to the new requirements reflected in the 2008 Act. A NCUA OIG staff member has been
assigned to provide such services on an as-needed basis. We also have a Memorandum of

                                                                                                                1
Understanding with the International Trade Commission's Office of Inspector General (ITC OIG) to
provide technical assistance with our evaluation of NEA's compliance with the Federal Information
Security Management Act of 2002 on a reimbursable basis, as needed.

SUMMARY OF WORK COMPLETED BY NEA OIG
During the six-month period ended March 31, 2013, NEA OIG conducted the following audits,
inspections, evaluations, reviews, investigations, and other activities.

Audits/Inspections/Evaluations/Reviews

During the recent semiannual period, NEA OIG issued nine reports, which contained forty
recommendations based on audits and evaluations. Twenty recommendations were related to
NEA programs and twenty were related to NEA grantees. Three recommendations related to NEA
grantees were cleared during this reporting period. We also issued one memorandum to the
agency related to a NEA grantee which contained one recommendation. The agency implemented
the recommendation during this reporting period.

Audit Resolution

At the beginning of the six-month period, there were no reports awaiting a management decision to
allow or disallow questioned costs. During the period, three of the newly issued reports identified
questioned costs of $739,924, with potential refunds of $248,608. Two of the organizations
submitted documentation to support all of the questioned costs. A management decision was
made to allow $576,924 of the questioned costs, which eliminated potential refunds of $106,675.
(See Table I)

Inspections

The OIG did not conduct any inspections during the recent six-month period.

Investigations

We conducted a joint investigation with the OIGs of the National Science Foundation (NSF) and the
National Endowment for Humanities (NEH), of a Massachusetts public broadcasting company for
allegedly failing to properly track and account for Federal grant funds. Our investigation found that the
broadcasting company could not demonstrate that project costs charged to the Federal grants from
the three agencies were reasonable, allowable, and allocable. The company submitted inaccurate
financial reports over three years to the Federal agencies, used Federal funds to pay for
impermissible expenses, and maintained an inadequate accounting system for tracking grant
expenditures.

The U.S. Attorney’s Office entered into a civil settlement whereby, without admitting liability, the
company repaid $300,173—of which $1,747 was associated with NEA funds—and entered into a five-
year compliance plan to strengthen its oversight of Federal funds. NEA OIG did not open any new
allegation cases during the recent six-month period. No criminal investigations were performed during
the period.




                                                                                                       2
Audit of the NEA Fiscal Year 2012 Financial Statements

The Accountability of Tax Dollars Act of 2002 requires NEA OIG or an independent external auditor,
as determined by the Inspector General, to audit the agency financial statements. Under a
competitively awarded contract monitored by NEA OIG, Leon Snead & Company, an independent
certified public accounting and management consulting firm, received a one-year contract, with a four-
year option, in January 2011 to audit NEA’s financial statements. The audit was conducted following
Generally Accepted Government Auditing Standards (GAGAS) and Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as revised. In
addition, the firm provided reports on internal controls and compliance with laws and regulations for
matters relevant to the financial statement audit. The 2012 Financial Statement Audit Report was
issued November 8, 2012, and resulted in an unqualified (clean) opinion.

NEA’s Compliance with the Federal Information Security Management Act of 2002
(FISMA)

FISMA requires that each Federal agency develop, document, and implement an agency-wide
program for providing security for the information and information systems that support the
operations and assets of the agency, including those provided or managed by another agency,
contractor, or other source.

NEA OIG completed a full FISMA evaluation in FY 2012 using the most recent applicable FISMA
requirements and guidelines published by OMB, the U.S. Department of Homeland Security and the
National Institute of Standards and Technology. The evaluation concluded that although NEA made
progress in complying with FISMA, some additional improvements were needed. NEA OIG made four
recommendations.

Two evaluation reports were issued relating to NEA's network perimeter security and patching
program. The evaluations were performed by ITC OIG on behalf of the NEA OIG. The evaluation of
NEA's perimeter security concluded that while NEA's perimeter defense is effective, continuous
attention and improvement are required to ensure that it remains effective in the future. The report
contained seven recommendations. The evaluation of NEA's patching program concluded that NEA
has not implemented an effective, comprehensive system maintaining patch levels. The report
contained six recommendations. Corrective actions for all of the recommendations are in process.

Review of Legislation, Rules, Regulations and Other Issuances

NEA OIG is required to review and comment on proposed legislation and regulations for potential
impact on the Agency and its operations. During this reporting period, NEA OIG provided analysis
and written commentaries on Agency and other government publications/reports and regulations.

Technical Assistance

NEA OIG provided technical assistance to NEA grantees and their independent auditors. Our
efforts included, for example, clarifying and interpreting the audit requirements of OMB Circular




                                                                                                       3
A-133, “Audits of States, Local Governments, and Non-Profit Organizations," and advising some of
the first-time and smaller organizations on implementing practical accounting systems and internal
controls sufficient to assure compliance with their grant agreements.

NEA OIG also assisted Agency staff with technical issues related to auditing, accounting, and audit
follow-up.

Web Site

NEA OIG maintains an ongoing Internet presence (www.arts.gov/about/OIG/Contents.html) to
assist and inform NEA grantees and Agency employees. The site includes pages for Reports;
Recovery Act including a section for Training and Resources; Reporting Fraud, Waste and Abuse;
Career Opportunities; External Peer Reviews of NEA OIG and Other Resources.

Peer Reviews

The Government Accountability Office’s Government Auditing Standards requires audit
organizations that perform audits or attestation engagements to have an appropriate system of
quality control and to undergo external peer reviews at least once every 3 years. Federal audit
organizations can receive a rating of Pass, Pass with deficiencies, or Fail. A peer review of NEA
OIG was conducted in August 2010 by the Federal Trade Commission's Office of Inspector
General. NEA OIG received a rating of Pass and that report is posted on our website.

In addition, NEA OIG performed an external peer review of the Export-Import Bank of the United
States Office of Inspector General Office of Audits. The report was issued February 2, 2012, and
can be found at http://www.exim.gov/oig/reports/audits-and-evaluations.cfm.

Outreach Activities

Outreach remains an essential component of our mission to prevent and detect fraud, waste, and
abuse, and to promote economy, efficiency and effectiveness in NEA programs and operations.
The numerous proactive activities undertaken by NEA OIG staff have addressed programmatic and
financial responsibilities of NEA grant recipients, education of NEA grant recipients and staff about
fraud recognition and prevention and improving management of Federal awards.

Our office participates in the meetings of the National Single Audit Coordinators, Federal Audit
Executive Council, and the Financial Statement Audit Network. We also participate in the Federal
Audit Executive Council, Grant Reform Initiatives Working Group, Interagency Fraud and Risk Data
Mining Group and Grant Fraud Working Group.

Other Activities

During this period, NEA OIG took part in the activities of the Council on Inspectors General for
Integrity and Efficiency (CIGIE), and allocated resources for responding to information requests
from and for the Congress and other agencies. We have also participated in various efforts by
CIGIE and other Federal agencies to develop effective oversight strategies for Recovery Act
activities. Our staff are members of CIGIE's Inspection and Evaluation Committee and the Small
Office of Inspectors General Group and the Suspension and Debarment Working Group.

We continued our proactive oversight of NEA’s management of its Recovery Act funds with an
emphasis on the evaluation of recipients’ management of Recovery Act funds.

                                                                                                        4
The Improper Payments Information Act (IPIA) of 2002 1 and OMB Circular A-123, Appendix C,
Management’s Responsibility for Internal Control: Requirements for Effective Measurement and
Remediation of Improper Payments, require agencies to review all programs and activities, identify
those that are susceptible to significant erroneous payments, and determine an annual estimated
amount of erroneous payments made in those payments. The IPIA was followed by the Improper
Payments Elimination and Recovery Act (IPERA) in 2010 and a series of OMB memoranda, which
included requirements for inspectors general to annually review and report on their agency’s
compliance with IPERA. The second annual report was due by March 15, 2013, to the head of the
Agency, Congress, OMB and the General Accountability Office. We issued our annual report
March 4, 2013.




1
    P.L. 111-204.
                                                                                                     5
                                 SECTIONS OF REPORT
The following sections of this report discuss the 12 areas specifically required to be included
according to Section 5(a) of the IG Act of 1978, as amended. Table I shows Inspector General
issued reports with questioned costs and Table II shows that there were no Inspector General
issued reports with recommendations that funds be put to better use.

SECTION 1 – Significant Problems,                    •   Personnel costs charged to grant projects
Abuses and Deficiencies                                  were not supported by adequate
                                                         documentation, (e.g., personnel activity
Prior to this period, we became aware of                 reports were not maintained to support
significant deficiencies in the management of            allocations of personnel costs to NEA
Federal awards by an NEA grant recipient.                projects);
We issued an alert memorandum to the
agency recommending suspension of                    •   Grantees needed to improve internal
payments and awards to the grantee until the             controls, (e.g., ensuring that contractors
conclusion of our audit. Management                      and recipients are not debarred or
concurred with our recommendation and                    suspended from receiving Federal funds
immediately suspended payments and                       prior to the payment or award of Federal
awards to the grantee. The audit, which                  funds and developing written policies and
concluded during the current period,                     procedures for the management of
confirmed the deficiencies and as a result, we           Federal awards).
issued recommendations to the grant
recipient and NEA officials.                         SECTION 2 – Recommendations for
                                                     Corrective Action
Audits, evaluations and other reviews
conducted by NEA OIG personnel during the            To assist grantees in correcting or avoiding
current and prior periods have disclosed a           the deficiencies identified in Section 1, NEA
few instances of deficient financial                 OIG utilizes two “Financial Management
management practices in some organizations           Guides,” one for non-profit organizations and
that received NEA grants. Among these                the other for state and local governments.
were:                                                The guides are not offered as complete
                                                     manuals of procedures; rather, they are
•   Not accounting for costs separately by           intended to provide practical information on
    grant award; (e.g., accounting structures        what is expected from grantees in terms of
    that do not provide accurate and complete        fiscal accountability. The guides are available
    information about all financial transactions     at www.arts.gov/about/OIG/Guidance.html.
    related to each Federally-supported
    project);                                        The guides discuss accountability standards
                                                     in the areas of financial management, internal
•   Reported grant project costs did not agree       controls, audit, and reporting. The guides
    with the accounting records, (e.g.,              also contain sections on unallowable costs
    financial status reports were not always         and shortcomings to avoid. In addition, the
    prepared directly from the general ledger,       guides include short lists of useful references
    subsidiary ledgers or worksheets);               and some sample documentation forms.




                                                                                               6
SECTION 3 – Recommendations in
Previous Reports on Which Corrective
Action Has Not Been Implemented

There were no significant recommendations
in previous reports on which corrective action
has not been implemented.

SECTION 4 – Matters Referred to
Prosecuting Authorities

A joint-agency investigation of a grantee
resulted in a referral to the United States
Attorney’s Office for the District of
Massachusetts. A civil settlement included a
five-year compliance plan and a recovery of
$ 1,747 to the NEA (see Investigations).

SECTION 5 – Denials of Access to
Records

No denials of access to records occurred
during this reporting period.




                                                 7
            SECTION 6 – Listing of Reports Issued and OIG Hotline Contacts



REPORT                                                                                                                                    DATE OF
NUMBER                                                          TITLE                                                                     REPORT


                                                                Audit Reports

A-13-01     NEA FY 2012 Financial Statement Audit .............................................................................. 11/08/12


                                                         Limited Scope Audits

LS-13-01    Arts Midwest (MN) ................................................................................................................. 01/11/13
LS-13-02    Music Theatre Group (NY) ................................................................................................... 03/01/13
LS-13-03    Minnesota State Arts Board (MN) ......................................................................................... 03/15/13


                               Financial Management System & Compliance Evaluations

SCE-13-01   Greater Philadelphia Cultural Alliance (PA) .......................................................................... 02/07/13
SCE-13-02   Philadelphia Orchestra Association (PA) .............................................................................. 03/27/13


                                                        Special Review Reports

R-13-01     FY 2012 Evaluation of NEA's Compliance with FISMA......................................................... 12/17/12
R-13-02     Evaluation of NEA Patching Program ................................................................................... 02/15/13
R-13-03     Evaluation of NEA Perimeter Security .................................................................................. 02/15/13


                                                     TOTAL REPORTS – 9


                                                                 Memoranda

M-13-05     Music Theatre Group (NY) .................................................................................................... 01/22/13

                                                 TOTAL MEMORANDA – 1


                                                             Contacts

                           Telephone Calls………………………………………………………………….                                                                 0
                           Email ……………………………………………………………………………..                                                                     1
                           Standard Mail…………………………………………………………………….                                                                  0
                           Referred by Other Sources……………………………………………………..                                                           1
                           Fax………………………………………………………………………………..                                                                       0
                           FIOA Request…………………………………………………………………....                                                                 1


                                                   TOTAL CONTACTS – 3

                                                                                                                                                           8
SECTION 7 – Listing of Particularly Significant         SECTION 10 – Audit Reports, Inspection
Reports                                                 Reports, and Evaluation Reports Issued Before
                                                        the Commencement of the Reporting Period for
There were no particularly significant reports during   Which No Management Decision Has Been
the reporting period.                                   Made by the End of the Reporting Period
.
SECTION 8 – Statistical Tables Showing Total            As shown on Table I, there were no audit reports
Number of Audit Reports, Inspection Reports,            issued before the commencement of the reporting
and Evaluation Reports and the Dollar Value of          period for which no management decision has been
Questioned Costs                                        made by the end of the reporting period.

Table I of this report presents the statistical         SECTION 11 – Significant Revised Management
information showing the total number of                 Decisions Made During the Period
audit reports, inspection reports, and
evaluation reports and the total dollar value           No significant revised management decisions were
of questioned costs.                                    made during the reporting period.

SECTION 9 – Statistical Tables Showing                  SECTION 12 – Significant Management
Total Number of Audit Reports, Inspection               Decisions With Which the Inspector General
Reports, and Evaluation Reports and the Dollar          Disagrees
Value of Recommendations that
Funds be Put to Better Use by                           There were no significant management decisions
Management                                              that the Inspector General disagreed with during
                                                        the reporting period.
As shown on Table II, there were no audit reports,
inspection reports and evaluation reports with rec-
ommendations that funds be
put to better use by management.




                                                                                                    9
                                                                 TABLE I

                             INSPECTOR GENERAL ISSUED REPORTS
                                   WITH QUESTIONED COSTS

                                                                 ____        _QUESTIONED COSTS_ ________
                                                                                                                                 POTENTIAL
                                                                 NUMBER                TOTAL           UNSUPPORTED               REFUNDS           2

         A. For which no management decision
            has been made by the commencement
             of the reporting period                                   0                          0                     0                     0


        B. Which were issued during the reporting
            period                                                     3                  739,924               28,000               248,608


             Subtotals (A + B)                                         3                  739,924               28,000               248,608


        C. For which a management decision was
            made during the reporting period


            (i)    Dollar value of disallowed costs                    0                          0                     0                     0


            (ii)   Dollar value of not disallowed costs                2                 576,924                        0            106,675



        D. For which no management decision has
             been made by the end of the reporting
                      3                                                1                 163,000                28,000         ____141,933
             period

            Reports for which no management
            decision was made within six months of
            issuance                                                   0                          0                     0                     0




2
  The potential refund amount may not equal the questioned cost amount because matching requirements must be considered and the grantee
may be either under or over matched. In addition, historically, the potential refund generally is reduced significantly as a result of the audit
follow-up process, which includes examination of documentation submitted by the grantee.

3
    Potential refund does not include $20,000 award, in which, no funds have been drawn down.
                                                                                                                                                   10
                                       TABLE II

         INSPECTOR GENERAL ISSUED REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                             DOLLAR
                                                    NUMBER    VALUE

 A. For which no management decision has been
    made by the commencement of the reporting
    period                                            0        0

 B. Which were issued during the reporting
    period                                            0        0

    Subtotals (A + B)                                 0        0

 C. For which a management decision was made
    during the reporting period                       0        0

    (i)    dollar value of recommendations
           that were agreed to by management          0        0

           - based on proposed management
             action                                   0        0

           - based on proposed legislative action     0        0

    (ii)   dollar value of recommendations that
           were not agreed to by management           0        0

 D. For which no management decision has been
    made by the end of the reporting period           0        0

    Reports for which no management decision
    was made within six months of issuance            0        0




                                                                      11
                                                                                 APPENDIX A


                            DEFINITIONS OF TERMS USED

The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                       A cost that the National Endowment for the Arts (NEA)
                                      Office of Inspector General (OIG) questioned because of
                                      alleged violation with a provision of a law, regulation,
                                      contract, other agreement or document governing the
                                      expenditure of funds; such cost is not supported by
                                      adequate documentation; or the expenditure of funds for
                                      the intended purpose is unnecessary or unreasonable.

Unsupported Cost                      A cost which NEA OIG questioned because the cost was
                                      not supported by adequate documentation at the time of
                                      the audit. Unsupported costs are included in the total
                                      questioned costs.

Disallowed Cost                       A questioned cost that management has sustained or
                                      agreed should not be charged to a NEA grant or
                                      cooperative agreement.

Funds Be Put To Better Use            A recommendation made by NEA OIG that funds could be
                                      used more efficiently if management took actions to
                                      implement and complete the recommendation.

Management Decision                   Management's evaluation of the findings and
                                      recommendations contained in the audit report and the
                                      issuance of management’s final decision, including actions
                                      to be taken. Interim decisions and actions are not
                                      considered final management decisions for the purpose of
                                      the tables in this report.

Final Action                          The completion of all actions that management has
                                      concluded in its management decision with respect to
                                      audit findings and recommendations. If management
                                      concluded that no actions were necessary, final action
                                      curs when a management decision was made.
                             REPORTING WRONGFUL ACTS

Anyone, including Agency employees, who learns about or has reason to suspect the
occurrence of any unlawful or improper activity related to NEA operations or programs, should
contact NEA OIG immediately. A complaint/referral may be reported using any of the following
methods:
              Toll-free OIG Hotline: 1-877-535-7448
              Local Calls: 202-682-5479
              Fax: 202-682-5649
              Email: oig@arts.gov
              Website: www.arts.gov/about/oig/fraud.html


You may also visit or write us at the National Endowment for the Arts, Office of Inspector
General, Room 601, 1100 Pennsylvania Avenue, NW, Washington, DC 20506.

When contacting NEA OIG, it will help if you have answers to the following questions:

   •   Who are the parties involved (names, addresses and phone numbers if possible);

   •   What is the suspected activity (specific facts of the wrongdoing);

   •   When and where did the wrongdoing occur;

   •   How did you learn about the activity (from a third party, actual observation, conclusion
       drawn from observing or performing different activities, etc.); and

   •   Where can you be contacted or when will you contact us again.

The OIG will not disclose the identity of a complainant or informant without consent, unless the
Inspector General determines that such disclosure is unavoidable during the course of the
investigation. You may remain anonymous, if you choose. Federal employees are protected
against reprisal for disclosing information to the Inspector General unless such disclosure was
knowingly false.
